#

SUPREME COURT OF GEORGIA
Case No. S20C1540
March 15, 2021

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
JAMIE PATRICK HAHN v. THE STATE.
The Supreme Court today denied the petition for certiorari
in this case.
All the Justices concur, except Peterson, J., not participating.
Court of Appeals Case No. A20A0582

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

FIRST DIVISION
BARNES, P. J.,
GOBEIL and PIPKIN, JJ.
NOTICE: Motions for reconsideration must be
physically received in our clerk’s office within ten
days of the date of decision to be deemed timely filed.
https://www.gaappeals.us/rules
DEADLINES ARE NO LONGER TOLLED IN THIS
COURT. ALL FILINGS MUST BE SUBMITTED WITHIN
THE TIMES SET BY OUR COURT RULES.

June 30, 2020

In the Court of Appeals of Georgia
A20A0582. HAHN v. THE STATE
Pipkin, Judge.
Jamie Patrick Hahn was convicted of five counts of child molestation, and he
now appeals. Hahn contends that evidence of child pornography was improperly
admitted under OCGA § 24-4 404(b) (“Rule 404(b)”); the jury should have been
charged on the lesser included offense of sexual battery; the trial court erred in failing
to merge the five convictions into a single count; he was improperly sentenced on all
five counts; and that he was subjected to a vindictive prosecution. For the reasons
stated below, we affirm Hahn’s convictions but vacate his sentence, and we remand
for resentencing.
Hahn was originally indicted on one count of child molestation and one count
of aggravated child molestation in 2011. He initially pleaded guilty to a single count

of child molestation but, after a successful appeal to this Court, Hahn withdrew his
guilty plea and demanded a trial by jury! See Hahn v. State, 338 Ga. App. 498 (790
SE2d 282) (2016). The prosecutor then filed a superseding indictment, dropping the
count of aggravated child molestation and charging Hahn with a total of five counts
of child molestation. A jury returned guilty verdicts on all counts. Viewed in a light
most favorable to those verdicts, see Wilkes v. State, 306 Ga. App. 847, 847 (702
SE2d 922) (2010), the evidence presented below established as follows.
The victim was Hahn’s eight-year-old stepdaughter. On at least five occasions,
over a period of eight to ten months, Hahn visited the victim’s bedroom, removed her
clothing, and rubbed his penis on her vagina until he ejaculated. The victim reported
the abuse to her maternal grandmother. Hahn was subsequently charged and arrested;
while out on bond, he fled to Kentucky where he lived and worked under an assumed
name. Hahn’s true identity was discovered when his roommate called police to report
finding child pornography on Hahn’s computer. During a recorded interview with law
enforcement in Kentucky, Hahn confessed to repeatedly molesting the victim in the
same manner she described. Finally, the jury heard testimony that multiple semen
stains were found on the victim’s bedding and that they matched Hahn’s DNA. With
these facts in mind, we turn to Hahn’s enumerations of error.
2

1. The trial court permitted the State, pursuant to OCGA § 24-4-404 (b), to
introduce evidence that child pornography had been found on Hahn’s computer; the
evidence was admitted for the purpose of establishing motive and intent. Hahn argues
on appeal that the evidence was not admitted for a “proper purpose” and that the trial
court reached its decision1 without first undertaking the balancing test required by
OCGA § 24-4-403. We find no reversible error.
In order for evidence of other acts to be admissible under Rule 404(b), the
evidence must (1) be relevant to some issue other than character; (2) satisfy the
requirements of Rule 403; and (3) there must be sufficient evidence to permit a jury
to conclude that the accused committed the other act in question. See Olds v. State,
299 Ga. 65,69-70 (2) (774 SE2d 186) (2016). At issue here are the first two prongs.
As to the first prong, the Rule itself “identifies a number of ‘other purposes’ for
which evidence of other acts permissibly may be admitted,” and the relevancy of such
evidence is reviewed under OCGA § 24-4-401. Olds, 299 Ga. at 69-70. With respect

'While, this Court has held that evidence of other acts may be admitted for the
purpose of establishing a defendant’s propensity to commit certain crimes, under
OCGA § 24-4-414, because the State did not move to admit the evidence under Rule
414, this Court shall not consider it See Dixon v. State, 350 Ga. App. 211 (828 SE2d
427) (2019).
3

4

f

to the second prong, evidence offered for a proper purpose under this Rule must be
excluded pursuant to OCGA § 24-4-403 “if its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, or misleading
the jury or by considerations of undue delay, waste of time or needless presentation
of cumulative evidence.” Entwisle v. State, 340 Ga. App. 122, 131 (2) (796 SE2d
743) (2017). A trial court’s decision to admit evidence of other crimes will not be
disturbed absent an abuse of discretion. Chitwood v. State, 352 Ga. App. 218,224 (3)
(834 SE2d 334) (2019).
While Hahn asserts that the trial court relied on decisions applying our former
Evidence Code, the record squarely reflects that the trial court ultimately permitted
the State to adduce the evidence for the purpose of showing intent and motive, which
are acceptable purposes under OCGA § 24-4-404 (b). See Kirby v. State, 304 Ga. 472
(819 SE2d468) (2018) (discussing intent and motive under OCGA § 24-4-404 (b)).
With respect to the second prong, “[w]e recognize that the trial court did not
explicitly reference the balancing test in OCGA § 24-4-403 before admitting the
evidence, “[b]ut [Hahn] argued below that the potential prejudice precluded its
admission, and the trial court [thus] implicitly rejected his argument.” Chase v. State,

4

337 Ga. App. 449,455 (787 SE2d 802) (2016). Nevertheless, even if the trial court’s
ruling was erroneous, we cannot say that it amounts to reversible error.
“[I]n order to serve as a basis for reversing [Hahn’s] convictions, the trial
court’s evidentiary error must have affected his substantial rights, i.e., it was not
harmless.” Gaskin v. State, 334 Ga. App. 758, 763 (1) (b) (780 SE2d 426)
(2015)(Citations omitted).
In Georgia, the standard for weighing nonconstitutional error in
criminal cases is known as the “highly probable test,” i.e., that it
is highly probable that the error did not contribute to the
judgment. Under that test, a reversal is not required if the
evidence of guilt is overwhelming in that there is no reasonable
probability that the verdict would have been different in the
absence of this error.
Kingv. State, 346 Ga. App. 362, 369-370 (1) (816 SE2d 390) (2018).
Hahn has not offered any specific argument regarding the prejudicial impact
of the other acts evidence and has failed to establish that the admission of the
evidence was not harmless given the overwhelming evidence of his guilt. Here the
evidence before the jury included the victim’s testimony identifying Hahn as her
molester, evidence of multiple semen stains on the victim’s bedding matching Hahn’s
DNA, and Hahn’s own recorded confession during a police interview. In light of the

5

incredible strength of evidence of Hahn’s guilt, “there is no reasonable probability
that the verdict would have been different in the absence of this error.” Id.
2. Hahn contends that the trial court erred in failing to give a jury instruction
on the lesser included offense of sexual battery. We disagree.
“[A] written request to charge a lesser included offense must always be given
if there is any evidence that the defendant is guilty of the lesser included offense.”
State v. Alvarado, 260 Ga. 563,564 (397 SE2d 550) (1990). “Sexual battery may be
a lesser included offense of child molestation, but there is no error in failing to give
the charge if the state’s evidence establishes all the elements of an offense, and there
is no evidence raising the lesser offense.” (Punctuation and footnote omitted.) Goss
v. State, 305 Ga. App. 497, 500-501 (2) (699 SE2d 819)(2010).
A person commits the offense of child molestation when he or she does any
immoral or indecent act to or in the presence of or with any child under the age of 16
years with the intent to arouse or satisfy the sexual desires of either the child or the
person. OCGA § 16-6-4 (a). In comparison, a person commits the offense of sexual
battery when he or she intentionally makes physical contact with the intimate parts
of the body of another person without the consent of that person. OCGA § 16-6-22.1
(b).
6

“Where the indictment alleges child molestation and the evidence at trial shows
an intentional touching without the intent necessary to prove child molestation, a
charge on sexual battery as a lesser included offense would be required.” Goss 305
Ga. App. at 501. Here, however, the evidence demonstrated that on numerous
occasions, Hahn rubbed his penis against the vagina of the eight-year-old victim until
he ejaculated. “In the instant case ... all of the elements of child molestation were
established by the victim’s testimony and [Hahn’s] admission.” Id. “Therefore, the
evidence presented to the jury offered the choice between the completed crime or no
crime. Accordingly, the trial court was not required to charge on the lesser offense.”
Howell v. State, 278 Ga. App. 634,641(4) (629 SE2d 398) (2006), overruled on other
grounds, Hatley v. State, 290 Ga. 480 (722 SE2d 67) (2012).
3. As discussed above, the jury returned guilty verdicts on each of the five
counts of child molestation, and Hahn was sentenced on each count. Hahn argues that
the trial court erred in not merging the convictions into a single count for sentencing
purposes. We agree.
It is a longstanding principle of Georgia law that a date or range of dates
alleged in an indictment, without more, is not a material allegation ofthe
indictment, and consequently, unless the indictment specifically states
that the alleged dates are material, the State may prove that the alleged
crime was committed on any date within the statute of limitation.
7

Thomas v. State, 352 Ga. App. 640, 642, (1) (835 SE2d 640) (2019).
Hahn was charged with five counts of child molestation. Each count of the
indictment covered the same date range and alleged an identical manner of
committing child molestation.2 The only distinguishing factor between each count
was language alleging that the act was “separate and distinct” from the remaining
charges in the indictment. This Court expressly rejected this indictment framework
in Hunt v. State, concluding that the defendant’s sentences must merge where, as in
the present case, the crimes occurred within a certain range of dates and the State was
unable to make the date a material averment because the specific dates were
unknown. 336 Ga. App. 821, 825 (1) (783 SE2d 456) (2016). Because Hahn maybe
sentenced on only one of the counts in the indictment, we therefore vacate Hahn’s
sentences and remand this case for re-sentencing consistent with this opinion.3 Id.
2As a threshold matter, we note that this case involves no less than five discrete
incidents of molestation that occurred over a period of ten months. An appellate
court’s review of merger questions involving the same offense, as a matter of course,
triggers a unit of prosecution analysis. Scott v. State, 306 Ga. 507, 509-510 (2) (832
SE2d 426) (2019). Such an analysis does not affect the outcome here, as the issue
remains the insufficiency of the indictment in distinguishing one incident from
another.
3 Hahn also argues that the trial court was required to split his sentence under
OCGA § 17-10-6.2 (b). This argument is now moot because we have vacated his
sentences.
8

6
joj

poSjoui 9q Koip pqi Suumb9J jouubui b ui po&reqo 9jom sjunoo jnoj puopippB

9ip 9SUB09q 90U91U9S intlUnXBUI 9qj JO S9UIU0 9qj JO XJU9A9S 9tp 9SB9JDUI 10U pip
‘soSieqo puoiqppB popnpui juourpipui puooos oip 9pqm ‘jgqjmj; ‘?3\d siq M9jpipiM
uqBjj qoiqM p SuuBoq oq; jo jduosuBj; piyud b

si jjuoq

9xp 9JOj9q 90U9piA9 Kjuo

oqj puB ‘ssouoAijoipuiA jBuojnossoid jo uoijBxteqB gqi SuipJB§9J pnoo jbuj 9ip 9ioj9q
SuUB9q XiBpU9plA9 OU SBAV 9J9qj ‘J9A9MOJJ JUOUipipUI pU009S B p9UIBiqO J0JTlD9S0Jd
gqi ‘pui Amf b pgpuBUiop puB B9jd Xjpng siq AV9jpqjiM utpH J99V ‘uopBisojoui
pjiqo piiB uoijB}S9|oxn ppqo p9pABJ§§B q;tA\ po^JBqo XpBiqni

sbm

uqBjj

'SZZ'tZZ w 'PI „'SS9U9AipipUIA |BUOiri09SOJd JO UOlJBippjJO 9DUBJB9ddB 9ip S9SIBJ
qoiqM ‘s;qSu pjnpooojd uiBpoo jo 9spj9X9 ssiUBpu9j9p oqi 01 gsuodsoj ui S9§JBqo
oq; jo X}U9A9S 9qj S9SB9joui juguipipm juonbosqns 9qj 9J9qAv sjsixg gpu

jbjouoS

siqj ojnopdooxouy„ ’(l TOZ:) (b£I PZ3S 91L) 29L 'eO 68£ ‘WiS 71 ™di{ddis ‘spunojS
.raqio uo ps[tui3AO ‘(6003) (LL£ P33S LL9) (l) P££ ‘0££ 'ddy -bq L6Z ‘wms
sttdjq juouipipui jsjij oqj oj poqoBpB ;ou SBq XpjBdoof sb §uoj
jo

pnopippB uo jUBpU9j9p

b

Suipipupj

uioj; ojbjs

sb

‘S9§JBqo poijipora

9lP S9pnp9jd Suiqiojq
'99J§BSIp

9AV 'Pl°J9AU s9§jBqo 9q; posBOJOUi iu9uipipui puooos 9qj osnBOoq uoijnoosojd
9AipipuiA

b

oj popofqns Kjjodojdim

sbm

oq pqj spuopoo uqBjI ‘Xjpuij ‘f

sentencing purposes. See Division 3, above. Accordingly, Hahn is not entitled to
relief on this claim. See Metis, 297 Ga. App. at 335. See also Lopez v. State, 267 Ga.
App. 178, 179 (598 SE2d 898) (2004) (recognizing that the focus of vindictive
prosecution is on the State “increasing the severity of the charges following the
exercise of certain procedural rights”) (punctuation omitted; emphasis supplied).
Judgment affirmed in part; vacated in part; and remanded with direction.
Barnes, P. J., and Gobeil, J., concur.

10

